WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5069

William Paul Burch Freedom Mortgage Corporation, et al.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Freedom Mortgage Corporation

Please check the appropriate box:

© lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature. [Marc James Ayers Date 202108.06 0952-19 0500"

Date: 8/6/21

(Type or print) Name Marc James Ayers

© mr. O Ms. O Mrs. O Miss
Firm Bradley Arant Boult Cummings LLP
Address 1819 Fifth Avenue North
City & State Birmingham, Alabama Zip |35203
Phone (205) 521-8000 Email mayers@bradley.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

William Paul Burch

ce:
